No. 20A1

In the Supreme Court of the United States
GRETCHEN WHITMER, GOVERNOR OF MICHIGAN; JOCELYN BENSON, SECRETARY
OF STATE OF MICHIGAN; JONATHAN BRATER, DIRECTOR OF THE MICHIGAN BUREAU
OF ELECTIONS, IN THEIR OFFICIAL CAPACITIES, APPLICANTS
v.
SAWARIMEDIA L.L.C., ET AL.

PROOF OF SERVICE
The undersigned certifies that on July 23, 2020, she served the Withdrawal of
Emergency Application by emailing same to the email addresses provided:
Michael J. Steinberg
Counsel of Record for SawariMedia LLC
801 Monroe St.
Ann Arbor, MI 48109
mjsteinb@umich.edu

/ s/ Holly Gustafson
Holly Gustafson
Legal Secretary

